      OFFICE OF THE INSPECTOR GENERAL
      UNITED STATES POSTAL SERVICE




February 19, 2008

MICHAEL J. DALEY
VICE PRESIDENT, PACIFIC AREA OPERATIONS

SUBJECT: Audit Report – Air Networks – Federal Express Transportation Agreement –
         Pacific Area (Report Number NL-AR-08-002)

This report is one in a series of reports from our nationwide audit of the FedEx mail
transportation agreements. The objectives of our nationwide audit are to determine
whether operations are effective and to identify opportunities to save money. This
report focuses on the Pacific Area (Project Number 06XG005NL000).

We concluded that during fiscal years (FY) 2005 and 2006, the Pacific Area incurred
about $17.8 million in unnecessary costs because they used expensive FedEx
transportation to move mail that could have been moved on low-priced surface
transportation or on less costly passenger airlines. The Postal Service also paid FedEx
to sort mail when they could have avoided those costs by sorting the mail or properly
preparing it for transport before giving it to FedEx. The Pacific Area has an opportunity
to save the Postal Service about $45 million over the next 10 years by not using FedEx
to transport mail that could be transported on surface networks; by transporting
First-Class Mail® on passenger airlines when passenger airline capacity is available;
and where possible, by sorting the mail before giving it to FedEx to avoid their sorting
charges, and then timely providing it to FedEx. We made three recommendations
associated with our findings. We will report $17,756,411 in questioned costs, and
$45,031,871 in funds put to better use in our Semiannual Report to Congress.

Management agreed with all of our recommendations, but explained that because of
data limitations, including data complexity, they could not validate our monetary findings
at this time. We understand the issues associated with data complexity, and have
agreed to share all of our data and analytical methodology with management. In
response, management agreed to continue working with us in the context of our
standard audit procedure for closing significant recommendations.

The U.S. Postal Service Office of Inspector General (OIG) considers all the
recommendations significant, and therefore requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective action is
completed. The recommendations should not be closed in the follow-up tracking
system until the OIG provides written confirmation the recommendations can be closed.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Joe Oliva,
Director, Transportation, or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Anthony M. Pajunas
    Susan M. Brownell
    Cindy F. Mallonee
    Katherine S. Banks
Air Networks - Federal Express Transportation                                     NL-AR-08-002
 Agreement - Pacific Area Operations


                                        INTRODUCTION
 Background                      In January 2006, Postal Service management formalized a
                                 nationwide integrated air strategy and briefed the Board of
                                 Governors about this strategy. Management explained that
                                 even though passenger airlines were less costly than other
                                 air transportation contractors such as Federal Express
                                 (FedEx), passenger airlines were not as reliable as the
                                 Postal Service needed them to be. Under the strategy, the
                                 Postal Service intended to reduce reliance on passenger
                                 airlines; expand existing air transportation with FedEx and
                                 other air cargo carriers; and where possible, shift mail
                                 moved by air to less costly ground transportation. Officials
                                 emphasized that the integrated air strategy would increase
                                 air carriers’ on-time performance, create air network
                                 redundancy, improve flexibility, enhance security, and
                                 reduce costs by making contracting more competitive and
                                 allowing the Postal Service to eliminate infrastructure.

                                 Passenger Airlines – On June 30, 2006, when the Postal
                                 Service’s transportation contracts with passenger airlines
                                 expired without renewal, it discontinued most passenger
                                 airlines as domestic air transportation contractors and asked
                                 only selected airlines to continue. On September 29, 2006,
                                 the Postal Service announced new air transportation
                                 contracts with select passenger airlines. The Vice
                                 President, Network Operations, explained that by relying on
                                 passenger airlines with established records of performance,
                                 the new contracts would help achieve on-time delivery and
                                 provide higher levels of service.

    On July 31, 2006, the
   Postal Service signed a
       new 7-year air
       transportation
   agreement with FedEx.
        The air container
          pictured in the
    foreground is designed
   to fit onto FedEx aircraft.
 The Postal Service currently
     uses terminal handling
 services (THS) contractors to
    load mail into FedEx air
           containers.


                                 FedEx – On August 2, 2006, the Postal Service announced
                                 that it had truncated its original 2001 FedEx contract and



                                                  3
Air Networks - Federal Express Transportation                                     NL-AR-08-002
 Agreement - Pacific Area Operations


                                signed a new 7-year agreement. The agreement specified
                                an immediate price reduction in all contract categories and
                                allowed the Postal Service to continue outsourcing THS.
                                The Postal Service transportation network currently uses
                                THS contractors to prepare mail for FedEx. The contractor
                                for all Pacific Area THS operations is Evergreen Aviation
                                Ground Logistics Enterprises, Inc. Under THS contract
                                provisions, Evergreen places mail in air containers FedEx
                                provides.

                                Under the FedEx contract, the Postal Service periodically
                                negotiates with FedEx for mail transport capacity and as a
                                contract minimum, the Postal Service must use 95 percent
                                of that contracted capacity or pay for it anyway.

 Objectives, Scope,             This is one in a series of reports from our nationwide audit
 and Methodology                of the FedEx transportation agreement. The objectives of
                                our nationwide audit are to determine whether operations
                                are effective and to identify opportunities to save money.
                                This report focuses on FedEx operations in the Pacific Area.

                                To accomplish our objectives, we visited various facilities
                                and operations in the Pacific Area, including airport mail
                                centers (AMCs), THS operations, and mail processing
                                facilities in Los Angeles, Oakland, Ontario, Sacramento,
                                San Diego, and San Francisco, California.

                                We interviewed officials from Postal Service Network
                                Operations, the Pacific Area, and local facilities. We also
                                interviewed Postal Service contractors, including FedEx and
                                Evergreen officials. We evaluated the type of mail carried,
                                considered on-time service standards, analyzed alternate
                                surface and air network optimization solutions, and
                                observed and photographed operations. We also examined
                                relevant documents, including:

                                    •   The Postal Service Integrated Air Strategy, dated
                                        January 9, 2006.

                                    •   The original FedEx contract, dated January 10, 2001;
                                        and the extended FedEx contract, dated
                                        July 31, 2006.

                                    •   Postal Service contracts with passenger airlines.




                                                  4
Air Networks - Federal Express Transportation                                    NL-AR-08-002
 Agreement - Pacific Area Operations


                                    •   Contracts with THS contractors.

                                    •   Postal Service policies governing network routing
                                        and on-time standards.

                                We examined computer-generated data to analyze mail
                                volume, operational efficiency, and cost. We did not audit
                                or comprehensively validate the data; however, data
                                magnitude and accessibility significantly constrained our
                                work.

                                Our analysis included data from fiscal years (FY) 2005 and
                                2006. However, we included audit steps during 2007
                                fieldwork to confirm that conditions identified by FYs 2005
                                and 2006 data analysis still existed. These audit steps
                                included: (1) discussion with Postal Service officials,
                                managers, supervisors, employees, and contractors; (2)
                                examination of source documents; and (3) observation and
                                physical inspection. We also discussed our initial findings
                                and recommendations with senior Postal Service officials
                                throughout our audit, considered their perspective, and
                                included their comments where appropriate.

                                We conducted work associated with this performance audit
                                from March 2006 through February 2008 in accordance with
                                generally accepted government auditing standards and
                                included such tests of internal controls as we considered
                                necessary under the circumstances. Those standards
                                require that we plan and perform audit work to obtain
                                sufficient, appropriate evidence to provide a reasonable
                                basis for our findings and conclusions based on our audit
                                objectives. We believe the evidence obtained provides a
                                reasonable basis for our findings and conclusions based on
                                our audit objectives.

 Prior Audit Coverage           Our audit report, Air Networks – Issues in the Pacific Area
                                Associated with a Major Postal Service Customer (Report
                                Number NL-AR-08-001, dated November 23, 2007),
                                concluded that reduced reliance on commercial airlines, the
                                transition from commercial airlines to FedEx, and unique
                                circumstances in the Pacific Area delayed mail and caused
                                unanticipated expenditures. Our audit also concluded that
                                Postal Service Network Operations officials, contracting
                                officials, and Pacific Area transportation managers reacted
                                rapidly and appropriately to mitigate and correct conditions.



                                                 5
Air Networks - Federal Express Transportation                                    NL-AR-08-002
 Agreement - Pacific Area Operations


                                Some issues in our prior report are related to this report,
                                and we took care not to duplicate issues. In addition, we did
                                not duplicate monetary findings from our previous report.




                                                 6
Air Networks - Federal Express Transportation                                              NL-AR-08-002
 Agreement - Pacific Area Operations


                                         AUDIT RESULTS

 Pacific Area                   During FYs 2005 and 2006, the Pacific Area incurred about
 FedEx Operations               $17.8 million in unnecessary costs because they used
                                FedEx to move mail that could have been moved on
                                inexpensive surface transportation or on less costly
                                passenger airlines. The Postal Service also paid FedEx to
                                sort mail when they could have avoided fees by sorting the
                                mail or properly preparing it for transport before giving it to
                                FedEx. The unnecessary costs are summarized in Table 1
                                below.
                                            Table 1. Unnecessary Costs for FYs 2005 – 2006
                                                  Cost Category                          Cost in Millions
                                 Cost to transport surface mail on FedEx.                        $9.2

                                 Excess cost of First-Class Mail® that could have been
                                 flown on less costly passenger airlines.                         5.5

                                 Avoidable sorting costs at the FedEx Memphis hub.                3.1

                                 Total                                                          $17.8

                                The Pacific Area has an opportunity to save the Postal
                                Service about $45 million during the next 10 years by not
                                using FedEx to transport mail that could be moved on less
                                costly surface networks; by transporting First-Class Mail on
                                passenger airlines when FedEx contract minimums have
                                been met and passenger airline capacity is available; and
                                where possible, by avoiding FedEx sorting charges. The
                                cost avoidances are summarized in Table 2 below.
                                                        Table 2. Cost Avoidance*

                                            Potential Cost Avoidance                      $ Millions

                                 Moving surface mail on less costly surface
                                 transportation.                                              $29.8

                                 Avoiding FedEx sorting charges by maximizing plans
                                 to avoid the charges and pursuing additional
                                 opportunities to further reduce the charges.                  10.2

                                 Using commercial passenger airlines to move First-
                                 Class Mail when capacity exists and FedEx contract
                                 minimums have already been met.                                5.0

                                 Total                                                        $45.0

                                * Standard OIG practice for calculations of this type employs a 10-year
                                cash flow methodology, discounted to present value by applying factors
                                published by Postal Service Headquarters Finance.




                                                    7
Air Networks - Federal Express Transportation                                                NL-AR-08-002
 Agreement - Pacific Area Operations



 Flying Surface Mail on           Computer data for FYs 2005 and 2006 identified large
 FedEx                            volumes of surface mail transported on FedEx from origins
                                  in the Pacific Area to destinations across the country.
                                  Postal Service policy requires transportation managers to


   Catalogs in Priority Mail™
    sacks for transport by
            FedEx.

  Catalogs or other pieces of
    Standard Mail are not as
  time-sensitive as Express,
  Priority or First-Class Mail.
  Transporting Standard Mail
  on FedEx is unnecessarily
             costly.

  San Bernardino Processing
    and Distribution Center
           (P&DC),
      November 14, 2006.




                                  balance service and cost. Because surface mail is not as
                                  time-sensitive as Express, Priority or First-Class Mail,
                                  Pacific Area transportation managers could have moved it
                                  on highway or rail transportation and still have met Postal
                                  Service on-time standards. Transporting surface mail on
                                  FedEx instead of less costly rail or highway transportation
                                  cost the Postal Service about $9.2 million more than
                                  necessary as depicted in the chart below:

                                         Table 3. Excess Cost of Transporting Surface Mail on FedEx
                                                             FYs 2005 and 2006

                                     Fiscal      Periodicals     Standard     Packages or     Total Cost
                                      Year                         Mail         Parcels       in Millions

                                       2005         $715,297    $1,294,798     $2,264,742     $4,274,837

                                       2006          902,021     1,295,770       2,710,262     4,908,053

                                      Total       $1,617,318    $2,590,568     $4,975,004     $9,182,890

                                  Note: Information extracted from Postal Service computer data. See
                                  Appendix A for additional details.

                                  The Pacific Area was transporting surface mail on FedEx
                                  and incurring excess costs for the Postal Service, in part




                                                      8
Air Networks - Federal Express Transportation                                    NL-AR-08-002
 Agreement - Pacific Area Operations


                                because area processing plant employees were not
                                properly separating mail for transportation. For example, as
                                shown in Appendix A, during our site visits to processing
                                plants in Los Angeles, Long Beach, Oakland, San Diego,




        This Parcel Post
    package is designed for
      consumers to return
   merchandise to retailers
     or distributors. Parcel
           Post is not as
        time-sensitive as
      Express, Priority, or
      First-Class Mail, and
   transportation managers
          should move it
   economically on surface
          transportation.
      Here, a Parcel Post
   package is being loaded
   into a Priority Mail sack
     for transportation on
             FedEx.
    San Bernardino P&DC,
     November 14, 2006.




                                San Francisco, San Bernardino, and Sacramento,
                                California, we observed plant employees loading surface
                                mail into First-Class Mail and Priority Mail containers or
                                sacks for transport by FedEx. We could not determine all
                                the reasons why plant employees were preparing surface
                                mail for transport on FedEx. However, if the Pacific Area
                                stopped flying mail on FedEx when that mail could be
                                moved on less costly surface networks, the Postal Service
                                could lower overall FedEx lift requirements and save about
                                $29.8 million.

 FedEx versus                   During the period March 1, 2005, through February 28,
 Passenger Airlines             2006, the Postal Service incurred $5.5 million in
                                unnecessary costs to move 3.7 million cubic feet of
                                First-Class Mail on FedEx from origins in the Pacific Area.
                                The excess costs were incurred because Pacific Area
                                transportation managers could have met FedEx contract




                                                 9
Air Networks - Federal Express Transportation                                              NL-AR-08-002
 Agreement - Pacific Area Operations


                                minimums and moved additional mail in available capacity
                                on less costly passenger airlines. See Table 4 below.

                                       Table 4. Available Unused Capacity on Passenger Airlines
                                 Analysis of the Pacific Area – March 1, 2005, through February 28, 2006

                                        Pacific Area        Unused Passenger Airline         Excess
                                          Origin             Capacity in Cubic Feet           Costs

                                 Honolulu                              20,726                  $20,508
                                 Las Vegas*                           317,484                  448,832
                                 Los Angeles                        1,103,736                1,537,214
                                 Oakland                              265,958                  412,188
                                 Ontario                               33,471                   59,896
                                 Phoenix*                             636,865                1,012,176
                                 Reno*                                  2,249                    3,914
                                 San Diego                            294,972                  477,396
                                 San Francisco                        547,477                  914,121
                                 Sacramento                           497,575                  634,508
                                 Total                              3,720,513               $5,520,753

                                * Las Vegas, Phoenix, and Reno became part of the Western Area on
                                April 1, 2006.


                                Postal Service transportation managers explained that
                                transportation on FedEx is the most costly method,
                                passenger airlines are less costly, and surface
                                transportation is the least costly. They explained that the
                                priority for assigning First-Class Mail generally follows these
                                criteria:

                                    •    Surface transportation when distances allow that
                                         method to meet on-time standards.

                                    •    Passenger airlines because these carriers provide
                                         the least costly air transportation.

                                    •    FedEx when air transportation is required and
                                         capacity on passenger airlines or other commercial
                                         carriers is not available.

                                For First-Class Mail that requires air transportation, Postal
                                Service processing plants assign the mail to air carriers
                                before dispatching the mail to airports. During our site visits
                                to THS operations at airports in Los Angeles, Oakland,
                                Ontario, San Diego, San Francisco, and Sacramento, we
                                observed First-Class Mail arriving from processing plants
                                routinely assigned to FedEx when FedEx contract
                                minimums had already been met and capacity on less costly
                                passenger airlines was available. Senior Postal Service




                                                       10
Air Networks - Federal Express Transportation                                      NL-AR-08-002
 Agreement - Pacific Area Operations


                                officials explained that because of performance concerns
                                with passenger airlines, their integrated air strategy was
                                intended to reduce reliance on passenger airlines and
                                increase reliance on FedEx. However, in response to our
                                inquiries during the audit, local transportation managers did
                                not cite passenger airline reliability as a reason why they
                                were not assigning First-Class Mail in excess of FedEx
                                contract minimums to available capacity on passenger
                                airlines.

                                Using FedEx after contract minimums are met is more
                                costly than moving mail on passenger airlines. Pacific Area
                                transportation managers have an opportunity to meet
                                on-time standards and still save about $5 million if they
                                maximize the reliable capacity on the select passenger
                                airlines currently under Postal Service contract as domestic
                                air transportation contractors.

 Mixed versus Bypass            During the period March 1, 2005, through February 28,
 Air Containers                 2006, the Pacific Area unnecessarily spent about
                                $3.1 million to have FedEx sort mail at the FedEx Memphis
                                hub. The Postal Service tenders mail to FedEx in both
                                bypass and mixed containers.

                                    •   Bypass containers hold mail bound for the same
                                        destination airport. Consequently, when they arrive
                                        at the FedEx hub, the containers can bypass the
                                        FedEx sort operation and be transferred directly to
                                        planes departing the hub for final destination airports.
                                        Bypass containers move through the FedEx hub at
                                        no additional cost to the Postal Service.

                                    •   Mixed containers hold mail bound for various
                                        destination airports. Consequently, when they arrive
                                        at the FedEx hub, FedEx must open the containers,
                                        remove the mail, and sort it before loading it onto
                                        departing planes. The Postal Service is required to
                                        pay FedEx for sorting mail at the FedEx hub.

                                The Postal Service contract with FedEx established sorting
                                fees that FedEx charged the Postal Service for sorting mail.
                                During the analysis period, FedEx charged the Postal
                                Service between Xxxxx and Xxxxx for sorting each sack,
                                tub, tray, or similar mail handling unit. Sorting mail in one of
                                the largest FedEx air containers could have cost more than




                                                  11
Air Networks - Federal Express Transportation                                  NL-AR-08-002
 Agreement - Pacific Area Operations


                                $700 because those containers hold up to 550 First-Class
                                Mail letter trays.




  An AMJ is FedEx’s largest
 air container. Here a mixed
 AMJ is about to be unloaded
  at the FedEx Memphis hub
         sort operation,
         April 20, 2005.




                                Evergreen, the Postal Service contractor for all THS
                                operations in the Pacific Area, loads FedEx air containers
                                for transport on FedEx. For many valid operational reasons,
                                Evergreen cannot always load mail into bypass containers
                                and must put the mail in mixed containers. To balance
                                service and cost, the Postal Service establishes goals for
                                bypass and mixed containers. Our analysis of the Pacific
                                Area for the period March 1, 2005, through February 28,
                                2006, concluded that the Pacific Area rarely met bypass
                                goals. For example, during Quarter 4, FY 2005, Pacific
                                Area THS operations had a 58 percent bypass goal,
                                allowing Evergreen to “build” 42 percent mixed containers.
                                However, during this period, the Pacific Area achieved only
                                a 45.5 percent bypass average.

                                Since Pacific Area operations did not meet bypass container
                                goals, the Postal Service spent more money than necessary
                                to sort mail at the FedEx Memphis hub. Our analysis of
                                FedEx scan data for the period identified more than
                                2.3 million mail bags, trays, tubs, or other mail handling
                                units that FedEx sorted unnecessarily. As a result, the
                                Postal Service paid FedEx about $3.1 million more than
                                needed. Postal Service contract provisions with FedEx
                                state that the Postal Service must pay the full FedEx price




                                                12
Air Networks - Federal Express Transportation                                       NL-AR-08-002
 Agreement - Pacific Area Operations


                                for every air container, whether the container is full or not.
                                Postal Service contract provisions with THS contractors
                                require Postal Service processing plants to sort mail for
                                bypass before transporting the mail to airports, and the

      FedEx freight and
   U.S. mail going through
   the FedEx Memphis hub
        sort operation,
        April 20, 2005.

      FedEx charges the
      Postal Service for
   handling every sack, tub,
      tray, or other mail
        handling unit.

      Note that U.S. mail
    packages, Priority Mail
        sacks, and an
   overturned tub are going
      thorough the sort
    operation commingled
      with FedEx freight.


                                same contract provisions state that THS employees are not
                                required to separate mixed mail so it can be loaded into
                                bypass containers.

                                Finally, Postal Service policy and THS contracts require
                                processing plants to dispatch mail requiring FedEx
                                transportation in time for THS contractors to properly load it
                                into FedEx containers. Pacific Area THS operations did not
                                meet bypass goals, and the Postal Service incurred
                                unnecessary costs to sort mail at the FedEx hub because
                                Postal Service mail processing plants did not:

                                    •   Completely separate and identify bypass mail before
                                        sending it to airports.

                                    •   Dispatch mail to airports in time for THS contractors
                                        to place the mail in bypass containers. For example,
                                        THS officials stated that the Xxxxx Xxxxxxx P&DC
                                        routinely transported mail late to Los Angeles, and
                                        during our site visit to Los Angles, we observed
                                        Xxxxx Xxxxxxx P&DC mail arriving late. When we
                                        advised local officials, they confirmed that late mail
                                        transportation from the P&DC to the airport was a
                                        routine condition.




                                                 13
Air Networks - Federal Express Transportation                                     NL-AR-08-002
 Agreement - Pacific Area Operations



                                Because Postal Service processing plants did not properly
                                prepare bypass mail or dispatch mail to airports on time,
                                THS contractors received insufficient bypass mail to fill all
                                planned bypass containers, and in order to fill FedEx air
                                containers to contract capacity, converted many planned
                                bypass containers to mixed containers. As a result, the
                                Postal Service paid FedEx to sort mail that should have
                                bypassed the FedEx sort operation. However, if Pacific
                                Area processing plants properly separate bypass mail and
                                dispatch mail to airports on time, the Postal Service could
                                avoid about $10.2 million in unnecessary sorting costs

 Implementation and    On December 6, 2007, we met with the Vice President,
 Audit Exit Conference Pacific Area Operations, and senior Pacific Area officials. In
                       addition, on December 20, 2007, we met with the Pacific
                       Area Distribution Networks Manager and members of her
                       staff. During our meetings, we shared an informal copy of
                       our draft report, discussed our preliminary findings and
                       recommendations, and solicited feedback. The officials
                       agreed with our recommendations and discussed various
                       actions they could take or had already taken to address the
                       issues we identified. We also discussed the complexity and
                       reliability of Postal Service data, our analytical methodology,
                       and the steps we took to compensate for data constraints.
                       The officials expressed concern that they would not be able
                       to quickly validate our analytical methodology, volume
                       estimates, or resulting calculations of monetary impact. We
                       agreed to share all the information our analysis was based
                       on, and management agreed to continue working with us to
                       facilitate understanding and achieve savings for the Postal
                       Service.

 Recommendation                 We recommend the Vice President, Pacific Area
                                Operations:

                                    1. Use surface transportation to move mail that does
                                       not require air transportation to meet Postal Service
                                       on-time standards.

 Management’s                   Management agreed with our recommendation. They
 Comments                       stated they would follow Headquarters Network Operations
                                policies, guidelines, and instructions to ensure the air
                                network was used only for mail that requires air
                                transportation, and not for periodicals, standard mail, or



                                                 14
Air Networks - Federal Express Transportation                                     NL-AR-08-002
 Agreement - Pacific Area Operations


                                other surface mail classes. Management also stated that as
                                part of their corrective efforts, they would review variance
                                documents and take countermeasures as appropriate, and
                                would establish the process no later than March 31, 2008.

 Recommendation                     2. When transporting mail that requires air
                                       transportation to meet on-time standards, maximize
                                       the capacity of passenger airlines currently under
                                       contract with the Postal Service as domestic air
                                       transportation contractors.

 Management’s                   Management agreed with our recommendation. They
 Comments                       stated that in their efforts to maximize the commercial air
                                network, they had already initiated several daily reports to
                                measure and communicate the volume of unauthorized mail
                                assigned and dispatched to FedEx.

 Recommendation                     3. Maximize the use of bypass containers by using
                                       bypass sorting as much as possible at processing
                                       plants and by dispatching mail to airports in time for
                                       terminal handling service contractors to load it into
                                       bypass containers.

 Management’s                   Management agreed with our recommendation. They
 Comments                       stated they were already actively pursuing that objective,
                                had established a bypass to a mixed container metric, and
                                routinely discussed the metric in daily telephone
                                conferences and at regularly scheduled strategy sessions
                                with each district. Management also stated they had
                                already conducted FedEx and terminal handling service
                                contract training for the Postal Service representatives
                                located at each terminal handling service sight, in order to
                                enhance understanding of those contracts.

 Additional                     Management agreed that that there were savings to be
 Management                     captured, but stipulated they could not validate monetary
 Comments                       impact at this time. Regarding the movement of surface
                                mail on FedEx, management explained that the field did not
                                have access to all necessary computerized data, and
                                consequently would have to develop alternative
                                countermeasures to reduce volumes and quantify potential
                                savings. Management also explained that at this time, they
                                could not validate the savings opportunities associated with
                                maximizing the use of bypass containers.




                                                 15
Air Networks - Federal Express Transportation                                   NL-AR-08-002
 Agreement - Pacific Area Operations




 Evaluation of                  Management’s comments are responsive to all of our
 Management’s                   recommendations. Management actions taken or planned
 Comments                       should correct the issues we identified. Regarding
                                management’s comments on our monetary impact
                                estimates, we understand the issues associated with data
                                accessibility and complexity, and we have agreed to share
                                all of our data and analytical methodology with
                                management. In response, management has agreed to
                                continue working with us to maximize savings for the Postal
                                Service. We will continue to pursue this ongoing dialog
                                regarding potential savings in the context of our standard
                                audit procedure for closing significant recommendations.




                                                16
          Air Networks - Federal Express Transportation                                                                              NL-AR-08-002
           Agreement - Pacific Area Operations



      APPENDIX A. PACIFIC AREA – SURFACE MAIL CLASSES ON FEDEX
                              FYS 2005-2006
                                                                                                                     TRACS Data by Quarter
                                          From TRANSPORTATION COST
                                                                                                                    FY 2005                   FY 2006
                                            SYSTEM (TRACS) Sampling                     Observed
                                                           Standard        Package       by OIG                 Q    Q     Q         Q   Q    Q     Q   Q
    Postal Facility                 Periodicals
                                                             Mail          Services                             1    2     3         4   1    2     3   4
Phoenix AMC                                 X                    X            X
Phoenix Logistics &
Distribution Center (L&DC)                  X                    X            X
Phoenix Annex                               X                    X            X               X
Las Vegas AMC                                                                 X
Las Vegas P&DC                              X                    X            X
Reno Airport Mail Facility                  X                    X            X
Reno P&DC                                   X                    X            X
Honolulu AMC                                X                    X            X
Honolulu P&DC                               X                    X            X
Los Angeles AMC                             X                    X            X
Los Angeles P&DC                            X                    X            X
LA International Service
Center                                                                        X
Long Beach P&DC                             X                    X            X               X
Pasadena P&DC                                                                 X
Santa Clarita P&DC                          X                    X            X
Oxnard Processing &
Distribution Facility (P&DF)                X                    X            X
Santa Barbara P&DC                          X                    X            X
Bakersfield P&DC                                                              X
Ontario AMC                                 X                    X            X
Industry P&DC                               X                    X            X
San Bernardino P&DC                         X                    X            X               X
Santa Ana P&DC                              X                    X            X
Anaheim P&DF                                                                  X
San Diego AMC                               X                    X            X
Midway P&DF                                 X                    X            X               X
Margaret L Sellers P&DC                     X                    X            X               X
San Francisco AMC                           X                    X            X
San Francisco P&DC                          X                    X            X
North Bay Priority Annex                                                      X
Oakland AMC                                 X                    X            X
Oakland P&DC                                X                    X            X               X
Oakland Priority Annex                                                        X               X
San Jose P&DC                               X                    X            X
Sacramento AMC - P&DC                       X                    X            X               X
Stockton P&DC                               X                    X            X
* During OIG on-site observations at these plants, Surface Mail Classes were found in the mail dispatched for transport via FedEx.
 OIG did not attempt to visit all of the Postal facilities in this list.
 Surface mail classes were found dispatched to FedEx at all facilities where OIG conducted site observations.




                                                                                  17
Air Networks - Federal Express Transportation          NL-AR-08-002
 Agreement - Pacific Area Operations


                   APPENDIX B. MANAGEMENT’S COMMENTS




                                                18
Air Networks - Federal Express Transportation        NL-AR-08-002
 Agreement - Pacific Area Operations




                                                19
                      Air Networks - Federal Express Transportation                                                                                                  NL-AR-08-002
                       Agreement - Pacific Area Operations

HNL CAIR Utilization / Missed Opportunity Report
Date:        Tuesday, 02/05/08

        First Class                                                                                                                          Reasons for Under Utilization
                                                                               Volume for
                                      Actual                                                                                                     Ground
                          Pounds                                     CAIR         this
  USPS                               Volume        % Utilization                                Missed        Lack of     THS         Late        Delay/
              USPS Dest Allocated                                  Available   Destination                                                                                   Comments
  Origin                             Assigned        on CAIR                                  Opportunity     Volume    Staffing   Assignment Early Cut-
                          on CAIR                                  Capacity    Assigned on
                                     to CAIR                                                                                                       off
                                                                                  FDX
  HNL           ATL              0             0                           0              0               0
                BDL              0             0                           0             10               0
                BOS            200             0            0%           200              0               0      X
                BWI              0             0                           0              0               0
                CLE              0             0                           0              0               0
                CLT              0             0                           0              0               0
                CMH            250             0            0%           250              0               0      X
                DEN          1,354             0            0%         1,354              0               0      X
                DFW         16,750             0            0%        16,750              0               0      X
                DTW              0             0                           0              0               0
                EWR         13,456             0            0%        13,456              0               0      X
                 FLL             0             0                           0              0               0
                 IAD           117             0            0%           117             14              14
                 IAH         4,000             0            0%         4,000              0               0      X
                 IND             0             0                           0              0               0
                LAS          4,000             0            0%         4,000              0               0      X
                LAX         12,500             0            0%        12,500              0               0      X
                MCI            500             0            0%           500              0               0      X
                MCO              0             0                           0              0               0
                MIA            500             0            0%           500              0               0      X
                MSP              0             0                           0              0               0
                MSY              0             0                           0              6               0
                OAK              0             0                           0              0               0
                OMA            250             0            0%           250              0               0      X
                ORD          3,161             0            0%         3,161              0               0      X
                PHL              0             0                           0              0               0
                PHX          2,060             0            0%         2,060              0               0      X
                 PIT           500             0            0%           500              0               0      X
                RSW              0             0                           0              0               0
                SAT              0             0                           0              0               0
                SEA         14,000             0            0%        14,000              0               0      X
                SFO            600             0            0%           600              0               0      X
                STL            750             0            0%           750              0               0      X
                TPA                            0                           0              0               0
                                               0                           0              0               0
                                               0                           0              0               0
                                               0                           0              0               0
                                               0                           0              0               0
                                               0                           0              0               0
                                               0                           0              0               0




                                                                                                            20
